IN THE SUPREME COURT OF THE UNITED STATES
MOTION TO PROCEED IN FORMA PAUPERIS

ROBRT McMILLIAN,
PETITIONER

v.

UNITED STATES OF AMERICA
Respondent
APPENDIX

Steven R. Kiersh
DC Bar#323329
5335 Wisconsin Avenue, N.W.
Suite 440
Washington, D.C. 20015
(202) 347-0200
Attorney for Petitioner
Appointed pursuant to the
District of Columbia Criminal
Justice Act
Member of the Bar of the
Supreme Court of the United
States

APPENDIX
I. Opinion from the District of Columbia Court of Appeals issued on Februray 24.
2021.

DISTRICT OF COLUMBIA COURT OF APPEALS
No. 18-CO-0107

L E

?

Robert McMillian, Appellant,

! FEB

24

0

2021

V.
DISTRICT OF COLUMBIA
COURT OF APPEALS

United States, Appellee.
Appeal from the Superior Court
of the District of Columbia
(CF1-23454-06)
(Hon. Erik P. Christian, Trial Judge)
(Argued November 03, 2020

Decided February 24, 2021)

Before Blackburne-Rigsby, ChiefJudge, and Glickman, Associate Judge,
and Ferren, Senior Judge.
MEMORANDUM OPINION AND JUDGMENT
Per Curiam: A jury found appellant Robert McMillian guilty of seconddegree murder while armed,1 possession of a firearm during a crime of violence,2
and carrying a pistol without a license.3 Now on his third appeal after a partial
remand,4 McMillian argues that the trial court erroneously denied his motion to

i

D.C. Code §§ 22-2103, -4502 (2001).

2 Id. § 22-4504(b).
3 Id. § 22-4504(a).
4 McMillian v. United States, No. 12-CO-1343, Memorandum Opinion and
Judgment, July 3, 2014 (hereinafter McMillian II), at 1; McMillian v. United
States, No. 08-CF-282, Memorandum Opinion and Judgment, July 6, 2012
(hereinafter McMillian 1), at 1.

2

vacate these convictions5 and asks us to order a new trial based on the
government’s failure to disclose before trial the impeachment evidence of a
government witness, allegedly in violation of Brady.6 For the reasons that follow,
we affirm the remand court’s order denying McMillian’s motion to vacate.

I. Background Facts

The facts date back to 2004, which we have previously detailed in two
unpublished memorandum opinions.7 On February 27, 2004, a man driving a
burgundy van fatally shot Anthony Boone through the eye while he was standing at
a bus stop near the corner of 13th and Savannah Streets, S.E.8 According to the
government, although “no physical evidence was recovered linking appellant
[McMillian] to the murder,” and “no one directly witnessed the shooting,” four
government witnesses
Cynthia Harris, Damian Berry, LeVerne Chapman, and
Charles Rindgo
testified, collectively, at trial that they: (1) identified the
burgundy van at the scene as belonging to McMillian (Flarris, Berry, Chapman,
Rindgo);9 (2) identified McMillian as the individual who drove the van up to the
bus stop (Rindgo);10 (3) saw the driver point a gun out the window (Berry);11 (4)

5 See D.C. Code § 23-110 (2012 Repl.).
6

Brady v. Maryland, 373 U.S. 83 (1963) (holding that suppression of
material evidence known to the government and favorable to the defendant violates
due process).
7 McMillian II; McMillian I.
8

McMillian II at 3; McMillian I at 2.

9 McMillian I at 2 n.2 (“All four witnesses identified, to the police, the
burgundy van as belonging to appellant.”).
10 McMillian II at 3 (“Mr. Rindgo testified that ‘he saw appellant drive up to
the bus stop where the victim was standing’ in a ‘purplish’ van . . . .”); McMillian I
at 2 n.4 (“Rindgo testified that he saw appellant drive up to the bus stop where
decedent was standing in a burgundy van.”).

3
saw the driver exit the van, “tussle[]” with Boone, and grab Boone’s coat (Berry,
Rindgo);12 (5) recognized McMillian at the bus stop (Harris);13 (6) heard gunshots
(Harris, Berry, Chapman, Rindgo);14 (7) saw the driver shoot Boone and return to
the van (Berry);15 and (8) watched McMillian’s van driving away (Harris, Berry,
Chapman).16
Witness Cynthia Harris testified, more specifically, that she had seen
McMillian at the bus stop talking to Boone and heard McMillian say “you know
what this is” (presumably referring to McMillian’s gun) and “give that [s**t] up”
(apparently referring to Boone’s coat).17 Although Harris did not directly observe
the shooting, she testified that she had heard gunshots, then saw McMillian’s
(. .. continued)
11 McMillian II at 3 (“Mr. Berry testified that he saw someone point a gun
out of the burgundy van, which he later identified in a photograph.”); McMillian I
at 6 (“Berry. . . saw the burgundy van drive up to the decedent, [and] saw an
individual point a gun at the decedent. .. .”).
12 McMillian II at 3 (“[Berry] also saw the driver ‘tussle[]’ with ... the
victim . . . .”); id. (“Mr. Rindgo testified that... [he saw appellant] argue with the
victim over the victim’s coat.”); McMillian I at 2 n.4 (“[Rindgo] witnessed
appellant and the decedent arguing, and saw appellant grab the decedent’s coat.”).
13 McMillian I at 2 n.3 (“Harris testified that she recognized appellant
talking to the decedent at the bus stop . . . .”).
14 McMillian II at 3 (“Ms. Harris did not see appellant shoot the victim but
heard gunshots.”); id. (“Mr. Chapman likewise testified that he heard
gunshots . . . .”); id. (“Although Mr. Rindgo never saw a gun, he heard at least one
gunshot go off and saw a ‘spark’ coming from appellant’s vicinity.”); McMillian I
at 6 (“Berry . . . saw an individual point a gun at the decedent, followed by the
sound of gunshots.”).
15 McMillian II at 3 (“[Berry] saw the driver . .. shoot the victim and then
pull away in the same van.”).
16 Id. (“[Harris] saw appellant’s ‘big burgundy van’ pull away.”); id.
(“[Berry] saw the driver ... pull away in the same van.”); id. (“[Chapman] testified
that he . . . saw a van ‘pulling off.’”).
17 McMillian II at 3; McMillian /at 2 nn.3&4.

4

burgundy van drive off from the bus stop, and later joked with McMillian about the
murder.18
On October 18, 2007, a jury found McMillian guilty on the second-degree
murder and weapons charges, and on February 8, 2008, McMillian was convicted
and sentenced to 35 years of incarceration. On February 25, 2008, he filed a direct
appeal. In September of 2009, he expressed concern about whether trial counsel
had been constitutionally effective.19
Accordingly, this court permitted
McMillian’s trial counsel (who was then acting as appellate counsel) to withdraw
and ordered appointment of new appellate counsel.20
On March 24, 2010, during pendency of the direct appeal, the government
disclosed for the first time that it had possessed, at time of trial, certain
impeachment evidence pertaining to a government witness, Cynthia Harris.21
Institutionally, the government (though not McMillian’s trial prosecutor) knew that
Harris had appeared as a government witness in another trial {McQueen), where
she testified that she had told her defense counsel about her “multiple personalities,
one of which was a ‘liar,’ that allegedly observed the murder ... in that case,” and
that she had revealed this to counsel “in an effort to avoid testifying, »22 The
government also acknowledged that a full medical evaluation revealed only that
Harris had suffered from depression and post-traumatic stress disorder (PTSD); no
multiple personality disorder was indicated.23
After these disclosures, McMillian filed a motion on June 9, 2010, to vacate
his convictions and receive a new trial pursuant to D.C. Code § 23-110, alleging
multiple grounds for reversal, including a Brady violation for suppression of

18 McMillian II at 3; McMillian I at 2 n.3.
19 McMillian II at 2.
20 Id. at 2.
21 Id. at 3-4.
22 Id. at 4.
23 Id. at 4 n.5.

5

Harris’s McQueen testimony.24 On July 6, 2012, this court issued an unpublished
memorandum opinion and judgment affirming McMillian’s convictions on direct
appeal.25 Two weeks later, on July 19, 2012, the trial court issued an order
denying McMillian’s § 23-110 motion without a hearing, and McMillian appealed
that order.26 In that second, collateral appeal, McMillian asserted that the trial
court had erroneously denied his § 23-110 motion without a hearing based on: (1)
constitutionally ineffective assistance of counsel at trial, and (2) the Brady failure
to disclose before trial Harris’s McQueen testimony indicating that she was a
“liar.”27

On July 3, 2014, we issued an unpublished memorandum opinion and
judgment on McMillian’s § 23-110 appeal, affirming in part but reversing and
remanding in part the trial court’s July 19, 2012 order.28 We affirmed the portion
addressing McMillian’s ineffectiveness claim but reversed on McMillian’s Brady
claim, remanding it for a renewed § 23-110 hearing.29 We explained that the
hearing was essential because impeachment evidence regarding possible multiple
personalities
especially a “liar” personality
bore uniquely on Harris’s
“mental state,” in contrast with the other evidence used to impeach her at trial
(such as her drug use and failure to wear glasses on the day of the shooting).30 We
further explained that a hearing would allow the parties to present “testimony, as
needed, from Ms. Harris, as well as witnesses who can shed additional light on the
information regarding her multiple personalities. »31
II. The December 7, 2016 Hearing

24 Id. at 2.
25 McMillian I at 1.
26 McMillian II at 2.
27 Id
28 Id
29 Id.
30 Id. at 12.
31 Id. at 13.

6

At the remand hearing on December 7, 2016, neither McMillian nor the
government presented a witness. Nor was McMillian or the government able to
locate any medical record supporting a diagnosis that Harris ever had a multiple
personality disorder or schizophrenia. Nonetheless, in addressing the only
contested Brady issue, namely “prejudice,”32 counsel for McMillian argued that the
newly disclosed evidence concerning Harris — especially the McQueen transcript
— would have altered the outcome of McMillian’s trial because defense counsel
could have impeached Harris by causing her to acknowledge that “she was a selfadmitted, self-confessed liar.”
Counsel for McMillian observed that, at McMillian’s trial, Harris had
testified that she goes by four different names, including “Camilla,” but counsel
stressed that she had not characterized that personality. Earlier in McQueen,
however, Harris had testified under oath that, as “Camilla,” she gets into trouble
and lies. According to counsel, the word “liar” is a “very rare” and “very powerful
word” that the defense could have used to discredit Harris, who was “the
centerpiece in the case” as the only witness who knew McMillian “by name” and
“recognized his voice.” Counsel argued that the testimonies of other witnesses
were relatively weak because “[t]here were significant discrepancies in what they
saw and the details about what they saw,” such as McMillian’s exiting the van
from different sides and the van’s fleeing in opposite directions. Finally, defense
counsel maintained that these “other witnesses” gave “suspect” testimonies
because they were the beneficiaries of plea bargains, intent on currying favor with
the government based on “very sweet deals. ”33
In response, the government argued that the McQueen impeachment
evidence would not have changed the outcome of McMillian’s trial. First,
observed the government, it could have rehabilitated Harris as a witness based on
her complete testimony in the McQueen trial. On that occasion, defense counsel
had attempted to impeach Harris’s credibility with Harris’s admission that she had
told a Public Defender Service (PDS) investigator that she had four personalities.
On redirect, however, the government had elicited from Harris that she had lied

32 Id. at 12.
33 In his brief on appeal, McMillian’s counsel referenced plea agreements
for witnesses Berry and Rindgo but not for Chapman.

7

about multiple personalities only to a PDS investigator, and then only for a specific
purpose: to end their frequent visits to her home, which scared her and her
children. The government added that it would have elicited similar testimony in
McMillian’s trial, thereby rehabilitating Harris as a witness by explaining that her
telling an investigator she had multiple personalities was merely a clever excuse to
be left alone.
The government further argued, and defense counsel acknowledged, that
there “were no psychological or mental health records of any kind,” reflecting that
Harris suffered a multiple personality disorder; arid the only medical records that
either party could locate evidenced a history and treatment of drug use, consistent
with Harris’s testimony at McMillian’s trial.
The government also argued that Harris’s own testimony effectively rebutted
the notion that she was a liar, if only because, had she been attempting to curry
favor with the government, she could have made a stronger case against McMillian
by testifying, for example, that she actually had seen the shooting or had seen
McMillian get back into the van.
Finally, in arguing against the claimed prejudice from suppression of
Harris’s McQueen testimony, the government emphasized the determinative
testimony of the three government witnesses other than Harris: Chapman, Berry,
and Rindgo (the last of whom had known McMillian “since childhood”). Rather
than the “centerpiece” of the prosecution, as the defense maintained, the
government called Cynthia Harris “a bit player in corroborating the testimony” of
Rindgo and Chapman. Harris, argued the government, “could have been
impeached from here til[l] Kingdom Come with how much drugs she used”; her
McQueen testimony “would not have made a difference in the outcome of the
case.”
III. The January 16, 2018 Order
After the remand hearing, the remand court issued an order on January 16,
2018, concluding that McMillian had failed to meet his burden to show a
reasonable probability that the government’s failure to disclose the Harris
impeachment evidence from McQueen was “material enough to undermine the
Court’s confidence in the verdict.” In fact, the court reached this conclusion even
assuming that defense counsel could have prompted Harris to call herself a “liar”
on the stand.

8
The remand court explained that, even without the McQueen impeachment,
Harris’s testimony in the McMillian trial already was sufficient for a jury to infer
that she sometimes lied, as she had “repeatedly and consistently contradicted
herself on the stand.” The remand court also concluded that the government’s
explanation of Harris’s motive for lying to the PDS investigator to assuage her and
her children’s fears would have put the impeachment evidence “in context” for the
jury, undermining the defense argument that Harris, in effect, was a congenital liar.
Finally, the court emphasized that “other eyewitnesses testified as to having
witnessed Defendant commit the crime, . . . corroborated by Ms. Harris.”
Accordingly, the remand court concluded that McMillian’s “convictions should be
affirmed.”
IV. McMillian’s Third Appeal
On February 5, 2018, McMillian filed a third appeal, this time contesting the
trial court’s January 16, 2018, order after remand (remand order). He claims three
errors in the remand court’s denial of his § 23-110 motion: (1) the remand hearing
was inadequate, (2) he was prejudiced by the late-disclosed impeachment
evidence, and (3) the remand order conflicts with precedential case law.
A.

Adequacy of the Remand Hearing

McMillian’s first alleged error — premised primarily on uncontested
evidence that witness Cynthia Harris suffered from PTSD34 — is easily disposed
of. He maintains, first, that the remand hearing was inadequate because Harris
herself did not testify, and that no expert testimony or other medical evidence was
introduced concerning the “memory disturbances” and other “extreme stressor[s]”
predominant in PTSD. McMillian himself, however, failed to call for testimony
from Harris at the remand hearing, or to proffer any expert witness to establish the
relevance, if any, of his claim that PTSD generated a tendency in Harris to lie to
the jury.35

34 McMillian II at 4 n.5.
35 Although McMillian’s appellate brief specifies studies that describe a
“wide array of symptoms” evidencing PTSD, a tendency to lie is not mentioned.

9
It is true, as McMillian points out, that in McMillian II we said that the trial
court, on remand, could “hear testimony, as needed, from Ms. Harris, as well as
witnesses who can shed additional light on the information regarding her multiple
personalities, ”36 But it was McMillian’s responsibility, not the court’s, to elicit
such testimony.37 Therefore, as his counsel on appeal acknowledged at oral
argument, McMillian must demonstrate plain error,38 meaning that the remand
court erred in failing sua sponte to identify and call a suitable expert, or to evaluate
and apply on its own, the medical literature on PTSD proffered by McMillian in
support of reversal. Without question, however, there was no error, let alone plain
error, here; McMillian’s substantial rights were not affected by the trial court’s
refusal to arrange for, or act itself as, a medical expert.
B.

Prejudice under Brady

In Brady, the Supreme Court held that a criminal defendant has a due
process right to disclosure of material evidence known to the government and
favorable to the defendant.39 The government, therefore, has a duty to disclose
such evidence “in time for the defendant to make effective use of it at trial.”40
For a defendant to establish a Brady violation, “(1) the evidence at issue
must be favorable to the accused either because it is exculpatory or because it is
impeaching; (2) the evidence must have been suppressed by the government, either
willfully or inadvertently; and (3) prejudice must have ensued, meaning that the
36 McMillian II at 13.
37 Dickens v. United States, 163 A.3d 804, 814 (D.C. 2017) (“Appellant has
the burden of proving the three components of ‘a true Brady violation.’”).
38 Collins v. United States, 73 A.3d 974, 980 (D.C. 2013) (explaining that
reversal for plain error is only merited when appellant can show “(1) there is error,
(2) the error is plain, meaning ‘clear’ or ‘obvious,’ ... (3) the error affected [his]
substantial rights[,] [and (4) ] the error seriously affect[s] the fairness, integrity, or
public reputation of the judicial proceedings.”) (quoting Baker v. United States,
867 A.2d 988, 1002 (D.C. 2005) (internal citations and quotation marks omitted).
39 Brady, 373 U.S. at 86-87.
40 Ingram v. United States, 976 A.2d 180, 192 (D.C. 2009) (quoting Stewart
v. United States, 881 A.2d 1100, 1116 (D.C. 2005)).

10
suppressed evidence must have been material, Ml Evidence will be “material” if
there is a “reasonable probability that, had the evidence been disclosed, the result
of the proceeding would have been different.”42 Put another way, materiality turns
on whether the nondisclosed evidence “could reasonably . . . undermine confidence
in the verdict.”43 If a defendant prevails under Brady — a matter we review for
materiality de novo44 — “then the defendant’s conviction cannot stand.”45
In our remand order, we observed that the government has conceded that
McMillian has satisfied the first two Brady elements.46 He argues here that the
third element also is satisfied — that the government’s failure to disclose Harris’s
McQueen testimony before trial prejudiced the defense by suppressing “material”
information that, if available, would have permitted the defense to establish Harris
as a “self-admitted, self-confessed liar.”
McMillian argues, more specifically, that the unavailability of McQueen
impeachment evidence in time for trial was especially prejudicial because Harris,
in identifying McMillian by name and recognizing his voice, was “an absolutely
essential” witness, indeed the only government witness to make an identification
without attempting “to gain a favorable benefit for herself’ (unlike witnesses
Rindgo and Berry, who testified pursuant to plea bargains).47

41 Dickens, 163 A.3d at 814-15 (quoting Miller v. United States, 14 A.3d
1094, 1109 (D.C. 2011)).
42 Terry v. United States, 114 A.3d 608, 621-22 (D.C. 2015) (quoting
Mackabee v. United States, 29 A.3d 952, 959 (D.C. 2011)).
43 Turner v. United States, 116 A.3d 894, 913 (D.C. 2015) (quoting Kyles v.
Whitley, 514 U.S. 419, 435 (1995)).
44 Id. at 914-15.
45 Terry, 114 A.3d at 621 (quoting Miller v. United States, 14 A.3d 1094,
1109 (D.C. 2011)).
46 McMillian //at 10 n. 15.
47 There is no evidence that the other government witness, Chapman,
benefited from a plea bargain.

11
To the contrary, we cannot discern the claimed prejudice. On this record,
we must hold that the McQueen impeachment evidence was not material; there is
no reasonable probability that its introduction at trial would have changed the
outcome. More specifically, the court on remand did not err in concluding that,
even if the McQueen testimony had been available for impeachment of Harris at
McMillian’s trial, the impeachment could not have materially profited the defense.
In sum, we cannot gainsay the perception of the remand court — the very court
which conducted the trial — that even if Harris had a confirmed propensity to lie,
the government could have undermined her response with her other testimony in
McQueen: that she had claimed multiple personalities merely as a ruse to convince
a PDS investigator to leave her and her family alone.
McMillian’s claim of prejudice — of material suppression of the McQueen
testimony — cannot be resurrected by various inconsistencies in details recalled by
the other witnesses, all of whom together, in various ways, were able to place
McMillian at the scene48 as the likely murderer. As the remand court observed,
two or more witnesses may see or hear things differently, and thus an “innocent
misrecollection, like a failure to remember,” is “not an uncommon experience” —
a concern addressed by cross-examination as well as appropriate jury instructions.
Nor do the plea bargains negotiated with two of the government’s witnesses
necessarily taint their testimony, subject to cross-examination, corroboration by
other witnesses, and eventual assessment by the jury.49
C.

48

Judicial Precedent

McMillian I at 2 n.2.

49 McMillian understands the remand court to have improperly discounted
prejudice from suppression of the McQueen evidence — at least in part — on the
ground that it was “character information” unrelated “in fact or substance to the
instant case.” But this court confirmed, as the government conceded, that however
the McQueen testimony is characterized, it would have been favorable
impeachment evidence, satisfying Brady’s first element — no question about it.
Thus, suppression of that testimony failed to warrant reversal not because of its
nature but because the suppression was insufficiently prejudicial to satisfy Brady’s
third element.

12
Finally, McMillian argues that the trial court’s order is inconsistent with our
Vaughn decision,50 a Brady case that reversed assault convictions for one of two
appellants (Morton) because the government had failed to disclose that a correction
officer — who testified that Morton had participated in a group attack on a jail
inmate and another corrections officer — had falsely testified regarding another
alleged inmate assault and had been demoted.51 In language equally applicable
here and in all Brady cases, we observed that “[fjavorable information” under
Brady’s first element “includes impeaching information,” which “does not have a
lesser standing [than more direct evidence] in the context of the government’s
Brady disclosure obligations”52 because “[t]he jury’s estimate of the truthfulness
and reliability of a given witness may well be determinative of guilt or
innocence. »53

On the facts, however, Vaughn is distinguishable from the present case, for
in Vaughn, one of only two government witnesses was unquestionably tainted,54
whereas for reasons explained earlier, we cannot say that failure to impeach Harris
with her McQueen testimony was prejudicial under Brady.
For all the foregoing reasons, McMillian’s Brady claim fails.

50 Vaughn v. United States, 93 A.3d 1237 (D.C. 2014).
51 Id. at 1243, 1266.
52 Id. at 1254.
53 Id. (quoting United States v. Bagley, 473 U.S. 667, 676 (1985)).
54 Id. at 1263 (“Officer Childs was only one of two government witnesses
who inculpated Mr. Morton . . ., and he was objectively the stronger witness.”).

13
The trial court’s January 16, 2018 order is affirmed, and McMillian’s
convictions remain affirmed.
So ordered.
ENTERED BY DIRECTION OF THE COURT:
/1

A

i a.

JULIO A. CASTILLO
Clerk of the Court

Copies to:
Honorable Erik P. Christian
Director, Criminal Division

Copies e-served to:
Steven R. Kiersh, Esquire
Elizabeth Trosman, Esquire
Assistant United States Attorney

